OIG Investigative Reports, Boston, MA.  May 24, 2013 - Lawrence Non-Profit Settles to Resolve Allegations of Federal Grant Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
THE UNITED STATES ATTORNEY'S OFFICE
DISTRICT of MASSACHUSETTS
NEWS
Lawrence Non-Profit Settles to Resolve Allegations of Federal Grant Fraud
FOR IMMEDIATE RELEASE
May 24, 2013
BOSTON – A Lawrence-based non-profit agency, funded largely by federal government grants, has entered into a settlement agreement to resolve allegations that several of its employees, including its former executive director, were paid for work on federal grants that was never done.
Specifically, the Greater Lawrence Community Action Council (GLCAC) applied for, and received, grants from the United States Department of Education to pay a program director and a program case manager to work on a full-time basis. In reality, the GLCAC program director and program case manager were simultaneously holding down part-time, paid positions with the Massachusetts Society for the Prevention of Cruelty to Children, where they worked during normal GLCAC hours. In addition, GLCAC was responsible for claims to the Department of Education for the indirect costs of paying GLCAC's facilities manager to work on a full-time basis, when in fact, during warm weather months, the facilities manager was golfing one or more afternoons per week during normal GLCAC working hours.
GLCAC also submitted, or caused to be submitted, claims to the U.S. Department of Health and Human Services for the costs of paying its former executive director's salary for working on a full-time basis, when in fact the former executive director worked only approximately 50 percent of the time that GLCAC claimed.
In the settlement, GLCAC does not dispute the government's allegations.
"Non-profit agencies perform important work in our communities, oftentimes using public monies. Agencies receiving taxpayers' dollars are expected to have a sense of integrity and to utilize funds for the actual purposes for which they are intended," said United States Attorney Carmen M. Ortiz. "Federal grant funds have become increasingly competitive in this fiscal climate. Communities suffer when funds are used inappropriately to subsidize employee moonlighting or recreational activities."
"I am proud of the work of OIG Special Agents and our law enforcement colleagues whose efforts led to today's action," said Brian Hickey, Special Agent in Charge of the U.S. Department of Education Office of Inspector General's Northeast Regional Office. "We will continue to work with our partners to protect the integrity of Federal education dollars."
The total settlement amount is $80,282. GLCAC will receive a credit of $57,282 for amounts previously paid to the Department of Health and Human Services pursuant to an administrative audit finding.
Today's settlement with GLCAC resolves a lawsuit filed by former GLCAC employee Ruth Tarbox under the qui tam, or whistleblower provisions, of the False Claims Act. Under the False Claims Act, private citizens can bring suit on behalf of the United States and share in any recovery. Ms. Tarbox will receive $11,500 as her share of the government's recovery. The government commends Ms. Tarbox for bringing to light the allegations resolved in the settlement.
U.S. Attorney Ortiz and Brian Hickey, Special Agent in Charge, U.S. Department of Education, Office of Inspector General, Northeast Region, announced the resolution of this matter today. This matter was investigated by Ortiz's Financial Litigation Unit and the Boston Office of the Inspector General for the Department of Education. It was handled by Assistant United States Attorney Gregg Shapiro of Ortiz's Civil Division.
This case is docketed as United States ex rel. Tarbox v. Greater Lawrence Community Action Council, Inc., and Philip F. Laverriere, Sr., No. 11cv12334-DPW (D. Mass.).
###
To report waste, fraud, abuse or misconduct concerning federal programs, please visit the website for the Office of the Inspector General (OIG) for the various entities: Department of Justice,  U.S. Health and Human Services, Department of Education, Department of Homeland Security, Social Security Administration and U.S. Housing and Urban Development.
Top
Printable view
Last Modified: 06/19/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov